No.

_

INTHE

SUPREME COURT OF THE UNITED STATES

DAMON WOODARD,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, DAMON WOODARD, asks leave to file the enclosed Petition
for a Writ of Certiorari to the Supreme Court of the United States without
prepayment of costs and to proceed In Forms Psuperis in accordance with Supreme
Court Rule 39. The Petitioner is a prisoner in the Federal Bureau of Prisons and has
previously been granted permission to appeal In Forms Peuperis as to filing fees in
this cause by the United States District Court for the Southern District of Florida,
Case No. o:19-cv-62289-WPD. See attached
WHEREFORE, Petitioner, Damon Woodard prays for leave to proceed In

Forms Pauperis.

Respectfully submitted,

The Law Office of
Robert David Malove, P.A.
633 South Andrews Ave., Suite 102
Fort Lauderdale, FL 33301
(954) 861-0384
Counsel of Record
Attorney for Petitioner

2

Case 0:19-cv-62289-WPD Document 18 Entered on FLSD Docket 12/18/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 19-cv-62289-DIMITROULEAS
(18-cr-60065-DIMITROULEAS)
UNITED STATES OF AMERICA,
Plaintiff,
vs.
DAMON WOODARD,
Defendant.
______________________________________/
ORDER GRANTING APPLICATION FOR PERMISSION
TO APPEAL IN FORMA PAUPERIS FOR FILING FEES ONLY
THIS CAUSE is before the Court upon Defendant’s Motion for Leave to Proceed In
Forma Pauperis on Appeal (the “Motion”). [DE 17]. The Court has carefully considered the
Application and is otherwise fully advised in the premises.
Accordingly, it is ORDERED AND ADJUDGED as follows:
1. The Motion [DE 17] is hereby GRANTED in part, as to filing fees only.
2. The Clerk is directed to mail a copy of this Order to Petitioner at the address below.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida,
this 18th day of December, 2019.

Copies furnished to:
All counsel of record

Case 0:19-cv-62289-WPD Document 18 Entered on FLSD Docket 12/18/2019 Page 2 of 2

